<html>
<title> - MISSING, EXPLOITED AND RUNAWAY YOUTH; STRENGTHENING THE SYSTEM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                     MISSING, EXPLOITED AND RUNAWAY YOUTH; 
                          STRENGTHENING THE SYSTEM


       ------------------------------------------------------------
       ------------------------------------------------------------

                                      HEARING
      
                                     BEFORE THE	

                          SUBCOMMITTEE ON SELECT EDUCATION

                                       OF THE

                             COMMITTEE ON EDUCATION AND
                                   THE WORKFORCE

                              HOUSE OF REPRESENTATIVES

                             ONE HUNDRED EIGHTH CONGRESS

                                    FIRST SESSION
		
                   HEARING HELD IN WASHINGTON, DC, APRIL 29, 2003


                                   Serial No. 108-12

                  Printed for the use of the Committee on Education
                                   and the Workforce




87-519 pdf

For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001



COMMITTEE ON EDUCATION AND THE WORKFORCE
JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin					GEORGE MILLER, California
CASS BALLENGER, North Carolina				DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan					MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California			DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware				ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas					LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia				CAROLYN McCARTHY, New York
FRED UPTON, Michigan					JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan					RON KIND, Wisconsin
JIM DeMINT, South Carolina					DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia					DAVID WU, Oregon
JUDY BIGGERT, Illinois					RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania				SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio					BETTY McCOLLUM, Minnesota
RIC KELLER, Florida					DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska					ED CASE, Hawaii
JOE WILSON, South Carolina					RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma					DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada					CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota					TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas					TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado					
	MARSHA BLACKBURN, Tennessee
	PHIL GINGREY, Georgia
	MAX BURNS, Georgia
	


             Paula Nowakowski, Chief of Staff
        John Lawrence, Minority Staff Director
				            ___________
 
  SUBCOMMITTEE ON SELECT EDUCATION
          PETER HOEKSTRA, Michigan, Chairman

JON C. PORTER, Nevada, Vice Chairman				RUBE?N HINOJOSA, Texas
JAMES C. GREENWOOD, Pennsylvania				SUSAN A. DAVIS, California
CHARLIE NORWOOD, Georgia				DANNY K. DAVIS, Illinois
PHIL GINGREY, Georgia					TIMOTHY J. RYAN, Ohio
MAX BURNS, Georgia						
						


                              TABLE OF CONTENTS

                              TABLE OF CONTENTS	i

OPENING STATEMENT OF CHAIRMAN PETE HOEKSTRA, SUBCOMMITTEE ON 
SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, DC	1

OPENING STATEMENT OF RANKING MINORITY MEMBER, RUBEN HINOJOSA, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC	3

STATEMENT OF ERNIE ALLEN, PRESIDENT, NATIONAL CENTER FOR MISSING AND 
EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA	6

STATEMENT OF MAI FERNANDEZ, MANAGING DIRECTOR, LATIN AMERICAN 
YOUTH CENTER, WASHINGTON, DC	8

STATEMENT OF MICHAEL HUGHES, COVENANT HOUSE YOUTH, COVENANT 
HOUSE WASHINGTON, WASHINGTON, DC	11

APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN PETE HOEKSTRA, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC	27

APPENDIX B -- WRITTEN STATEMENT OF ERNIE ALLEN, PRESIDENT, NATIONAL 
CENTER FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA	31

APPENDIX C -- WRITTEN STATEMENT OF MAI FERNANDEZ, MANAGING 
DIRECTOR, LATIN AMERICAN YOUTH CENTER, WASHINGTON, DC	55

APPENDIX D -- WRITTEN STATEMENT OF MICHAEL HUGHES, COVENANT HOUSE 
YOUTH, COVENANT HOUSE WASHINGTON, WASHINGTON, DC	63

APPENDIX E--SURVEY OF HOMELESS YOUTH IN MINNESOTA CONDUCTED BY 
THE WILDER RESEARCH CENTER, SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE BETTY MCCOLLUM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, WASHINGTON, DC	69

APPENDIX F- SUBMITTED FOR THE RECORD, WRITTEN STATEMENT OF JOAN E. 
OHL, COMMISSIONER, ADMINISTRATION ON CHILDREN, YOUTH AND FAMILIES, 
ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH 
AND HUMAN SERVICES, WASHINGTON, DC	127

APPENDIX G-SUBMITTED FOR THE RECORD, WRITTEN STATEMENT OF THE 
CHILD WELFARE LEAGUE OF AMERICA, NATIONAL ALLIANCE TO END 
HOMELESSNESS AND VOLUNTEERS OF AMERICA, WASHINGTON, DC	137

Table of Indexes	145



MISSING, EXPLOITED AND RUNAWAY

YOUTH; STRENGTHENING THE SYSTEM

TUESDAY, APRIL 29, 2003

_________________________________

HOUSE OF REPRESENTATIVES,

SUBCOMMITTEE ON SELECT EDUCATION,

COMMITTEE ON EDUCATION AND THE WORKFORCE,

WASHINGTON, D.C.


The subcommittee met, pursuant to call, at 2:06 p.m. In Room 2175, Rayburn House Office
Building, Hon. Peter Hoekstra [chairman of the subcommittee] presiding.

	Present:  Representatives Hoekstra, Gingrey, Burns, Hinojosa and Ryan.

	Staff Present:  Kevin Frank, Professional Staff Member; Parker Hamilton, Communications 
Coordinator; Whitney Rhoades, Professional Staff Member; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Holli Traud, Legislative Assistant; Tylease Fitzgerald, Minority Staff 
Assistant; Denise Forte, Minority Legislative Associate/Education; Ricardo Martinez, Minority 
Legislative Associate/Education.

OPENING STATEMENT OF CHAIRMAN PETE HOEKSTRA, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC

Chairman Hoekstra.  A quorum being present, the Subcommittee on Select Education will come 
to order.

	We are meeting today to hear testimony on Missing, Exploited and Runaway Youth: 
Strengthening the System.

	Under committee rule 12(b), opening statements are limited to the chairman and ranking 
minority member of the subcommittee.  If other members have statements, they may be included in 
the hearing record.

	With that, I ask unanimous consent for the hearing record to remain open 14 days to allow 
members' statements and other extraneous material referenced during the hearing to be submitted in 
the official hearing record.  Without objection, so ordered.

	I would like to welcome each of you to the hearing on Missing, Exploited and Runaway 
Youth: Strengthening the System.  The purpose of today's hearing is to continue our information-
gathering efforts to learn how programs under the Runaway and Homeless Youth Act and the 
Missing Children's Assistance Act are currently operating in preparation for the upcoming 
reauthorization of these two acts.

	The Missing Children's Assistance Act addresses the needs of missing, abducted and 
sexually exploited children.  The program was created to coordinate and support various federal 
missing children's programs through the Department of Justice's Office of Juvenile Justice and 
Delinquency Prevention and includes the authorization for the National Center for Missing and 
Exploited Children.  As the nation's resource center and clearinghouse for information on missing 
and exploited children, the center provides assistance to families and law enforcement agencies in 
locating and recovering missing and exploited children, both nationally and internationally.  The 
center does not investigate abducted, runaway and sexually exploited youth cases but receives leads 
and disseminates them to various investigative law enforcement units.

	The Runaway and Homeless Youth Act supports three grant programs to meet the needs of 
runaway and homeless youth.  These grants are awarded to local public and private organizations to 
establish and operate community-based shelters that are outside of the law enforcement, juvenile 
justice, child welfare and mental health systems.

	Through the Basic Center Program, financial assistance is provided to establish or 
strengthen community-based programs that provide youth with emergency short-term shelter, food, 
clothing, counseling and referrals for health care.  The Basic Centers seek to reunite young people 
with their families, whenever possible, or to locate appropriate alternative placements.

	The Transitional Living Program, TLP, provides grants to public and private organizations 
to support projects that provide longer-term residential services.  TLPs assist older homeless youth 
in developing skills and resources to promote their independence and prevent further dependency 
on social services.  These activities include counseling in basic life skills, interpersonal skills, 
educational advancement, job attainment skills, and physical and mental health care.  The TLP 
includes maternity group homes, which provide a range of coordinated services such as childcare, 
education, job training, counseling and advice on parenting, child development and other life skills.

	The Education and Prevention Services to Reduce Sexual Abuse of Runaway, Homeless 
and Street Youth Program, also known as the Street Outreach Program, funds local young service 
providers that conduct street-based outreach and education and offer emergency shelter and related 
services to young people who have been, or are at risk of being, sexually abused or exploited.

	As was done in 1999 through the Missing, Exploited and Runaway Children Protection Act, 
our desire is to strengthen these programs in order to address the unique needs of these at-risk 
children.  We must continue to support the center and its efforts to locate and recover missing 
children and help prevent child abductions and sexual exploitation.  Additionally, we wish to 
ensure the protection of runaway and homeless youth by keeping them off the streets, away from 
criminal activities and out of desperate circumstances.  These services and activities help a 
particularly vulnerable population, and today's hearing will shed light on the program's successes as 
well as avenues for improvement.

	I would like to thank each of the witnesses for appearing before the subcommittee today.  I 
look forward to hearing your testimony and the perspective each of you brings to this discussion 
about the safety and well being of our nation's children.

	With that, I will yield to the ranking minority member of the subcommittee, Mr. Hinojosa, 
for his opening statement.

WRITTEN OPENING STATEMENT OF CHAIRMAN PETE HOEKSTRA, SUBCOMMITTEE 
ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, DC - SEE APPENDIX A

OPENING STATEMENT OF RANKING MINORITY MEMBER, RUBEN 
HINOJOSA, SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC


Mr. Hinojosa.  Thank you.

	First, I would like to thank Chairman Pete Hoekstra for holding this hearing today.

	I want to welcome each and every one of you who will be participating in this hearing.

	As a society, we have a special obligation to protect runaway and homeless youth.  Since 
1974, the programs authorized under the Runaway and Homeless Youth Act has provided an 
essential safety net for these most vulnerable young people.

	There are three basic programs under the Act:  The Basic Program provides grants to 
community-based organizations to support emergency shelters for runaway and homeless youth; 
The Transitional Living Program provides resources to support longer-term residential placements 
in the development of life skills to promote the successful transition to adulthood and independent 
living; and The Street Outreach Program funds street-based outreach and education to homeless 
and runaway youth who have been sexually abused or who are at risk of sexual abuse.

	It is hard to imagine another set of federal programs that has the same life-changing or, 
better said, life-saving impact for the individuals served at such a small cost to the federal 
government.

	Overall, the programs under the Runaway and Homeless Youth Act were funded at less 
than $90 million for fiscal year 2003, barely a blip on the federal budget radar screen. Basic Center 
grants averaged over $117,000 in fiscal year 2001; Transitional Living Program grants averaged 
$195,000, and the average street outreach grant award was 94,000.

	Second, I would like to extend a warm welcome to the witnesses who will be presenting 
testimony today.  It is an impressive panel, and I commend the chairman for bringing all of them 
together.

	I am looking forward to hearing Mr. Allen, the President of the National Center for Missing 
and Exploited Children update us on the Center's activities and share with us some 
recommendations for this reauthorization.

	I am also eager to hear from Mai Fernandez of the Latin American Youth Center, who will 
tell us about the services they provide to homeless Latino youth here in the nation's capital.  I am 
particularly interested in learning more about how the center has developed programs and services 
tailored to the culture and linguistic needs of the Latino community.

	Finally, we all have a lot to learn from Michael Hughes, a direct beneficiary of these 
programs who was once homeless but is now working toward independent living and a college 
degree.

	Thank you for being with us today, and I am looking forward to your testimony.

Chairman Hoekstra.  Thank you, Mr. Hinojosa.

	I have a deal for you, a colleague of mine on our side of the aisle who would like to make 
an opening statement.  I don't know if Mr. Ryan would like to make an opening statement or not.  
Is it all right if we let those two members make a statement if they would like to?

Mr. Hinojosa.  You got a deal.

Chairman Hoekstra.  Thanks.

Mr. Gingery.

Mr. Gingrey.  Mr. Chairman, thank you.

	My opening statement is going to be very brief, so hopefully Mr. Ryan will not be long-
winded.

	But, of course, the chairman and the ranking member have already stated it very well.  I 
think much of what our President describes as his vision of compassionate conservatism and if we 
look at a $2.24 trillion fiscal year 2004 budget, all of the money spent on various and sundry 
programs, clearly a program like this to reach out and pull back youngsters who in most cases, 
through no fault of their own, are on the verge of being lost forever to society and to their families, 
I think that this is a perfect example of where we need to reach out and help those who cannot, 
because of circumstances, really pull themselves up by the bootstraps, so to speak.

	So I just want to thank the members of the panel that are with us this afternoon.  I look 
forward to hearing from you in regard to the National Center for Missing and Exploited Children 
which, of course, we were dealing with a couple of weeks ago and then these three programs: the 
Basic Center Program, the Traditional Living Program and, last but not least, the Street Outreach 
Program.  So thank you for being here, and we look forward to your testimony.

Chairman Hoekstra.  Mr. Ryan.

Mr. Ryan.  Thank you, Mr. Chairman.

	I don't know why you didn't let me go first, though.  I don't want to have a committee where 
there is no controversy here, so I will be upset about not being called on first.

	Thank you very much and thank you to the witnesses, especially the young gentleman here 
who is going to share with us his story.  I have personally done a lot of work trying to get young 
people involved in the politics through high schools and colleges, and it has really been a focus of 
mine since I have started in this line of work.  I just want to let you know how appreciative I am 
personally that you would take the opportunity to come here and share your story, and I am sure it 
is not easy for you, and to help us fully understand this issue and the issues that young people face 
today.  Because it is a much different world than it was 30 or 40 years ago.  So I look forward to 
your comments and thank you very much for having the courage to come up here and share it with 
us.

Chairman Hoekstra.  Thank you, Mr. Ryan.

	Let me introduce the witnesses.  We have Mr. Ernie Allen.  Mr. Allen is the President and 
Chief Executive Officer, as well as a co-founder, of the National Center for Missing and Exploited 
Children.  Previously, Mr. Allen served as the Chief Administrative Officer of Jefferson County, 
Kentucky; the Director of Public Health and Safety for the City of Louisville; and the Director of 
the Louisville-Jefferson County Crime Commission.

Mr. Allen, welcome and thank you for being here.

	We have Ms. Maria Christina Mai Fernandez.  Ms. Fernandez is the Managing Director of 
the Latin American Youth Center, one of the District of Columbia's youth and family development 
organizations.  Before joining the Latin American Youth Center, Ms. Fernandez was an associate 
with a local law firm, worked in the Office of Justice Programs at the United States Department of 
Justice, and served as a prosecutor with the Manhattan District Attorney's Office.  Welcome.

	Our third witness today is Mr. Michael Hughes.  Mr. Hughes is a 19-year-old formerly 
homeless youth.  After learning of the Covenant House, Washington, he obtained a place to live, a 
part-time job and began attending college.  Currently, Mr. Hughes is a freshman at the University 
of the District of Columbia and hopes to gain full-time employment with the Washington DC 
Firefighter/Emergency Medical Services Cadet Program.  Welcome.

	I think it probably will be a little bit informal today.  We will have these little lights on in 
front of you.  You may have testified before.  But the green light says you have plenty of time, the 
yellow light says you are running out, and the red light says you are out of time.  But I have a weak 
gavel, and we are very interested in what you have to say, so kind of take what you need and if you 
get to the red light, don't just stop. But take it as a cue that you are getting closer to the end than the 
beginning.

Chairman Hoekstra.  With that, Mr. Allen you can begin.


STATEMENT OF ERNIE ALLEN, PRESIDENT, NATIONAL CENTER FOR 
MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA

Mr. Allen.  Thank you, Mr. Chairman and members of the committee, I am honored to be here 
today; and, Mr. Chairman, I have submitted formal written testimony.  With your permission, I will 
just briefly summarize.

	You asked that I report to you on the work and the progress of the National Center for 
Missing and Exploited Children per the mandates of the Missing Children's Assistance Act of 
1984.  Since 1984, the center, working in partnership with the United States Department of Justice 
through the office of Juvenile Justice and Delinquency Prevention, has addressed those mandates of 
the statute.  I would like to just briefly highlight them.

	Congress asked in 1984 that there be established a national missing children's hotline.  The 
center has managed and operated that hotline on a 24-hour basis.  We have handled nearly 1.8 
million phone calls, calls for service.  We handle photo distribution and missing child cases.  We 
have built a network of private sector photo partners to disseminate missing child photos across 
America and around the world.  The purpose of that photo distribution is to generate leads 
regarding the whereabouts of missing children.

	We maintain, also, under the provisions of the act a case management system, a staff that 
works directly with the law enforcement investigators across the country to locate and return those 
children.  We have created an imaging unit through private sector support that attempts to keep 
long-term cases alive through age progressions of long term missing children.  We are doing facial 
reconstructs of unidentified deceased children from marked photos and from skeletal remains.

	Let me interject we have identified actually recovered 370 children so far who have been 
missing more than two years through the use of technology.

	Overall, the center has worked nearly 90,000 cases with the United States Department of 
Justice.  There are a series of criteria set for which cases that we formerly intake and work.  We 
work the most serious cases, and 73,000 of those children have been returned to their families.  So 
we think it is a system that is working.

	But, in addition to that, to the mandates specifically of the 1984 Act, Congress has asked us 
to undertake a number of other activities; and our role and our mission has expanded.  For example, 
in 1995, the State Department asked the center to assume lead responsibility in cases under the 
Hague Convention on international child abduction; and so we have dealt with those cases in which 
children are abducted from other countries and brought to the United States.

	In 1998, Congress asked us to become, in effect, the 911 for the Internet.  So we created a 
CyberTipline that is handling leads on line regarding child pornography, on-line enticement of 
children, child molestation and have handled 120,000 leads resulting in hundreds of successful 
arrests and prosecutions.

	A year later, Congress, in legislation called the Protection of Children From Sexual 
Predators Act, mandated Internet service providers to report child pornography on their sites to law 
enforcement and asked if the center would handle that role.  So we are now receiving the 
mandatory reports from AOL, MSN, Yahoo and all of the thousands of others of ISPs regarding 
child pornography on their sites.

	We are proud of the fact that the center has a very close working relationship with the 
Department of Justice and Federal law enforcement.  In fact, five federal law enforcement agencies 
now actually assign personnel to work out of the center, including the FBI, the Customs Service, 
ATF, the Postal Inspections Service and the United States Secret Service.

	But Congress has asked us to do some other things as well.  Most recently, we were asked 
to develop an animated on-line interactive Internet safety resource for Boys and Girls Clubs of 
America for 3,000 Boys and Girls Clubs.

Mr. Hinojosa, you will be pleased to know that we focus grouped and developed that 
resource in a Boys and Girls Club in McAllen, Texas, as well as on an Indian reservation in New 
Mexico and a public housing project in Richmond, Virginia.  So we have been at the forefront in 
trying to keep kids safe on-line.

	We are proud of the fact that, since 1984, it was really the vision of Congress that the center 
should not be another public agency but it should represent a public-private partnership.  So, in 
many ways, the private sector has played a key role in making what we do work.

	Our photo distribution system, 500 private sector photo partners, including Wal-Mart stores 
and Advo and television stations, none of which costs the taxpayers a dime, a CyberTipline that we 
built at the mandate of Congress was done purely through private sector support from Sun 
Microsystems and Computer Associates.  Our growth network that we are building has similarly 
been done through private sector support and database companies, including ChoicePoint and 
Cyzent, give us access to their databases to track missing children and bring them home.

	I know the red light is on.

	I have made a number of recommendations, some of which are technical, in my testimony.  
Let me just briefly mention one that I think is particularly key to this committee.

	Somewhat immodestly, I suppose, I think we have done a great job in responding to the 
kinds of crises that thousands of American children find themselves facing.  Eight hundred 
thousand children a year, according to the latest Justice Department data, are reported missing.  
However, where I don't think we have done enough is in the area of preventing the victimization of 
children in the first place.

	In 1999, we worked closely with Chairman Castle when he chaired the oversight committee 
for our center in its previous structure on bringing together experts including the National 
Committee to Prevent Child Abuse and the American Academy of Pediatrics and the National 
Association of Attorneys General and many others to look at what we are teaching our children, 
how we are educating children and families to help them avoid abduction and exploitation.  There 
are a lot of things happening in America in schools and in homes and in young-serving 
organizations.  It is our sense that we need to do more; and we would be honored to work, Mr. 
Chairman, with you and the committee to explore how we can do a better job on the front end, do 
as good a job as I think America is doing today in responding to these crises when they happen.

	Thank you, Mr. Chairman.

WRITTEN STATEMENT OF ERNIE ALLEN, PRESIDENT, NATIONAL CENTER FOR 
MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA - SEE APPENDIX B


Chairman Hoekstra.  Thank you.

Ms. Fernandez.


STATEMENT OF MAI FERNANDEZ, MANAGING DIRECTOR, LATIN 
AMERICAN YOUTH CENTER, WASHINGTON, DC

Ms. Fernandez.  Good afternoon Mr. Chairman, Mr. Hinojosa, and members of the committee.  I 
am Mai Fernandez.  I am the Managing Director of the Latin American Youth Center.  It is a great 
honor to be before you today.

	On a very personal note, Mr. Hinojosa, I used to work on the Select Committee on Hunger 
that was at that point chaired by the late Congressman Mickey Leland from Texas.  I worked on 
issues of Latino homelessness then.  So it is a great honor to be testifying before this subcommittee 
today.

	By way of background, the Latin American Youth Center was founded in 1968 and was 
incorporated in 1974 as a 501(c) 3 for the purpose of serving at-risk immigrants Latino youth.  
Since we opened our doors, the agency has grown from a small grassroots recreation center 
primarily for Latino young to a nationally recognized, community-based, multicultural youth and 
family development organization.  Our mission is to support youth and families in their 
determination to live, work and study with dignity, hope and joy.

	The Latin American Youth Center is organized into three program divisions: the Education 
Division, which keeps kids that are in school in school and prepares them for college; our Social 
Services Division that works with the youth and their families in order to keep them in healthy life-
styles; and our Works Skills Division that works with youth who have dropped out of school in 
order to get them trained for a job and to receive a GED.

	Under our Social Service Division, the Latin American Youth Center has a housing team.  
Through the housing team services the Latin American Youth Center provides transitional and 
long-term housing and support services to approximately 60 children and youth ages 0 through 21.  
These children and youth are abused, neglected, runaways and/or homeless.  We provide these 
services through a network of programs, including our Street Outreach Program, the Basic Center 
Host Home Program, the Transitional Living Program and the District of Columbia's Foster Care 
Program.

	We came about running these programs out of necessity.  About 15 years ago we were 
seeing a growing number of Latino boys and Latina teen mothers and their babies that did not have 
stable homes.  In the case of the boys, many of them were trying to fit into the American culture 
that often clashed with the Latin cultures of their families.  So, consequently, many of them either 
ran away or they were thrown out of their homes.  In the case of the teen mothers, many of them 
were also turned away from their families and found themselves in the precarious situation of 
having babies and no place to live.

	The District of Columbia abuse and neglect system should have found foster homes for 
these children.  However, at that time the district had no licensed foster homes with parents that 
spoke Spanish.  Moreover, the foster families that existed did not receive cultural competency 
training that would allow Latino youth to feel more comfortable in their home.  Consequently, few, 
if any, Latino youth were ever placed in the D.C. foster care system.

	In order to get these youth off the streets, we turned to the federal government.  In 1992, we 
received our first Transitional Living Program grant from the Department of Health and Human 
Services.  With private funds we were able to buy a small town house in the District.  The HHS 
grant funds provided us with the programmatic dollars needed to house 10 boys in the home for up 
to 18 months.  Shortly after we received that award, we received a Basic Center grant to house teen 
mothers and their babies in the homes of local families.  With these funds we were able to hire full-
time staff and also pay small stipends to Latino families in the district that were willing to take in 
these young women and their babies.

	We then received a Street Outreach Program that allowed us to hire outreach workers to go 
out into the street into areas in the district where youth hang out and actually pick up kids and bring 
them into a shelter for up to two weeks.

	Youth in each one of these programs receive case management services, which ensure that 
the youth are in school, in a GED program, have an after school job, and receive health care.  
Additionally, all our staff is bilingual so the youth can easily communicate their needs and have 
their needs met.  Additionally, traditional Latino food is often cooked for the youth and both typical 
American and Latin American holidays are celebrated in the programs.  The program counselors 
work vigilantly to reunite the young with their families.  However, while a youth is with us we 
want him or her to feel comfortable and to be in a place where he or she can prosper.

	I should also note that for years the Latin American Youth Center became a licensed foster 
care provider for the district.  Our goal is to train Latino families in the Washington metropolitan 
area to become foster families.  Now our foster care program works in conjunction with our 
program funded by the federal government.  This ensures that no youth or child falls through the 
cracks and that they will receive care and all be placed in safe and good shelter.

	With regard to improving the programs, there are a few suggestions that I would make.

	First, the Basic Center grant only allows us to house a young girl and her baby for up to two 
weeks.  As you can imagine, it is very, very little progress can be made in two weeks in trying to 
reunite a teen mom with her family or to try to find her stable housing.  At a minimum, I would 
suggest that you extend the length of stay for the Basic Center grant to six months.

	Secondly, it is very difficult to hire professional bilingual staff.  Applicants that speak 
Spanish that are qualified to do the job often go to better-paying jobs.  Programs that provide 
services to language minority youth should be provided with extra funds to hire and retain qualified 
bilingual staff.

	Third, local abuse and neglect systems often do not have the capacity to handle Spanish-
speaking clients, social workers are not bilingual, and Spanish-speaking foster care families do not 
exist in the jurisdiction.  The federal government should provide incentives to local jurisdictions to 
hire bilingual staff and create language and culturally competent programs.

	Lastly, I am making a personal plea for the Latin American Youth Center.  Last year, we 
raised private funds to create a state-of-the-art facility for our boys' Transitional Living Program.  
The home is beautiful.  You would be proud to have your own kids live in it.

	The same year we reapplied to HHS for Transitional Living Program funds to staff and 
operate the home.  Despite that our proposal was ranked and placed in the category for funding for 
the first time in 10 years, we did not receive the TLP funding because so many other organizations 
had applied around the country.

	The Latin American Youth Center refused to close down the program because the effects of 
the closure would have made 10 boys homeless.  This decision, however, has placed us in a very 
difficult financial situation.  We are currently reapplying for funds to pay for the services for next 
fiscal year.  My suggestion, however, is that preference being given to programs that have a history 
of operation.  Not only do we have a track record of success, but also we can be mentors to newer 
programs.

	Again, thank you for giving me the opportunity to testify before you today.  I would also 
like to invite you to visit our housing programs and see them in action.  The Latin American Youth 
Center is a 15-minute cab ride from Capitol Hill, and we welcome and treat our guests very well.

	Muchas gracias.

WRITTEN STATEMENT OF MAI FERNANDEZ, MANAGING DIRECTOR, LATIN 
AMERICAN YOUTH CENTER, WASHINGTON, DC - SEE APPENDIX C

Chairman Hoekstra.  Thank you very much.  Maybe Mr. Hinojosa and other subcommittee 
members that are interested might have the opportunity to visit.  We may take you up on that offer.  
Thank you very much.

	Mr. Hughes.

STATEMENT OF MICHAEL HUGHES, COVENANT HOUSE YOUTH, 
COVENANT HOUSE WASHINGTON, WASHINGTON, DC

Mr. Hughes.  Good afternoon, Mr. Chairman and members of the subcommittee.  Thank you for 
giving me the opportunity to appear before the subcommittee.

	I am here to urge you to reauthorize the Runaway and Homeless Youth Act because it 
supports Covenant House Washington and other organizations that help youth.  My name is 
Michael Hughes, Jr.; and I am a 19-year-old formerly homeless youth.  Due to circumstances 
beyond my control, I was asked to leave my home when I reached the age of 18.  I was completely 
unprepared to live on my own.  Consequently, I was homeless for a year and during that time.  I 
slept on park benches and in cars and at bus stops.  Occasionally, I slept on the floors of friends' 
homes.  I could never stay with friends for very long, though, because their housing was 
overcrowded and there was no room for me.

	Life on the street is really hard.  I worried constantly about where I would sleep each night, 
if I would get enough to eat, or if anyone would try to harm me or take the few possessions that I 
had.  To deal with the stress, I used alcohol and drugs.  I often felt depressed and hopeless about 
the future.

	Although I did not know it at the time, my life was about to change dramatically.  One day 
someone slipped me the number to Covenant House.  They told me that Covenant House helped 
homeless youth.  Once I called Covenant House, they responded quickly.  They fed me and gave 
me a clean and safe place to sleep for the night.  The following morning I met with Miss Sherry 
Williams, who is my Service Manager.  Miss Williams helped me stabilize my emotions and feel a 
sense of security that I hadn't felt in a long time.  She also placed me in the Crisis Center.  The 
Crisis Center provided a safe and stable place to stay for a short period of time.  While there, I 
found a part-time job there and enrolled in college.

Ms. Williams, who is in the audience today, is a great source of support and encouragement 
to me.  She is more than just a Service Manager, she is like family.

	Several months later, I applied for and was accepted into the Transitional Living Program.  
The living program is an 18-month supervised residential program.  But it is more than just a place 
to live.  The program gives me tools that I would need to live independently and be a self-sufficient 
adult.  I get training in budgeting, balancing a checkbook, finding an apartment and applying for a 
job.  The Transitional Living Program allows me to work on my education, learn practical skills for 
living, and learn to work better with peers and others.  I have a roommate in the Transitional Living 
Program, and we help each other stay focused on our goals.  When I complete the Transitional 
Living Program, I am confident that I will be ready to make the transition to self-sufficient 
adulthood.  The Transitional Living Program has been the bridge that I need to safely begin this 
journey.

	Although I learned of Covenant House through word of mouth, they work very hard to 
make sure that youth in need know about the services that they provide.  Covenant House operates 
a Street Outreach Program.  The program operates two vans throughout the city.  The vans are out 
16 hours each day from 9 a.m. to 1 a.m.  They also go where youth go: recreation centers, bus 
stations, corner stores and go-go's, just to name a few.  The outreach staff provides youth with 
information, referrals and services or sometimes just a hug or words of encouragement.  Youth are 
not always ready to come to Covenant House, but outreach is steadily present.  It is there when 
youth are ready to make a change in their lives.

	Through Covenant House, I have had the opportunity to do things I would never have 
believed possible just a year ago.  Last week, I served as the master of ceremonies for the 
dedication ceremony of our new Community Service Center.  I introduced such dignitaries as D.C. 
Representative Eleanor Holmes Norton, Mayor Anthony A. Williams and my Ward 8 Council 
Member Sandy Allen.

	I am majoring in biology at the University of the District of Columbia, and I am on track to 
graduate in four years.  Additionally, I am seeking full-time employment with Washington D.C.'s 
Firefighter/EMS Cadet Program.

	Because of Covenant House, I have a future.  It is one of the few programs that I know of 
that supports older youth.  There are a lot of youth out there just like me.  All they need is a helping 
hand.

	Thank you for holding this hearing today and taking the time to listen to what I have to say.  
Thank you.

WRITTEN STATEMENT OF MICHAEL HUGHES, COVENANT HOUSE YOUTH, 
COVENANT HOUSE WASHINGTON, WASHINGTON, DC-SEE APPENDIX D

Chairman Hoekstra.  Did you want to introduce Ms. Williams?

Mr. Hughes.  Sure.  She is right here, my Service Manager.

Chairman Hoekstra.  Thank you, nice to you as well, Ms. Williams; and, Mr. Hughes, thanks for 
being here.  What happens now, Mr. Hughes?  How long do you stay in the Transitional Living 
Program?

Mr. Hughes.  It is an 18-month program.  You can stay up to 18 months.

Chairman Hoekstra.  You have been in how long?

Mr. Hughes.  I am going on my fifth month.

Chairman Hoekstra.  So you can stay as long as somewhere in your sophomore year of college.

Mr. Hughes.  I just finished my freshman year.

Chairman Hoekstra.  So maybe when you are done with your sophomore year.

Mr. Hughes.  Yes, sophomore.

Chairman Hoekstra.  How are you doing in school?

Mr. Hughes.  Great, 3.0 plus.

Chairman Hoekstra.  Congratulations.  Do you think you will stay there for the full year?

Mr. Hughes.  Basically, it is until you are prepared to leave, you know.  If I obtain my full-time 
employment I might not have to, you know, stay longer.  I can open up a slot for another youth.

Chairman Hoekstra.  But it is going to be hard to be full-time employed and a full-time student.

Mr. Hughes.  I will have to leave school and start going to school at nighttime.

Chairman Hoekstra.  That is the option that you have, potentially.

Mr. Hughes.  Yes.

Chairman Hoekstra.  All right.  Ms. Fernandez, you talked about two weeks to six months.  Why 
do you think Congress put in the two-week requirement up front, and what are the unintended 
consequences?  Why did we do two weeks the first time?  Do you know why?

Ms. Fernandez.  I am not sure if I understand why.  I will give a guess.

	The Street Outreach Program is also an emergency housing program, lets a youth stays for 2 
weeks until we can stabilize the youth.  In a situation like that, when you are picking a kid off the 
street, trying to see what exactly his problems are and then trying to get them into either temporary 
or permanent housing, 2 weeks is a good time.  Basic Center, I assume, was maybe also look for an 
emergency kind of situation.

	But what we found is, the way we have been using the moneys to help teen moms and their 
babies, it just takes a lot longer in those kinds of situations, because you are not going to find a 
foster care family that wants to take in a mom and a baby.  It is hard because we can find 
employment for the moms, but then that takes some time in order to get employment for her, to be 
able to have her own housing.  In order to find them another program also takes probably more 
than two weeks.  So we need at least six months to sort of stabilize this young woman's life.

Chairman Hoekstra.  Okay.  What percentage of your funding was federal funding?

Ms. Fernandez.  Well, the TLP program was $200,000.

Chairman Hoekstra.  That is the grant you received?

Ms. Fernandez.  That was the grant we received.  We received in private funds for our overall 
housing programs about another $100,000 that we receive every year from Freddie Mac.  But the 
rest of our housing we have, our housing programs are all either federally or district funded.

Chairman Hoekstra.  So not getting the grant is a big deal.

Ms. Fernandez.  It is a huge deal.

Chairman Hoekstra.  So it is not like it is part or 10 or 15 percent of your budget.  It is a big part.

Ms. Fernandez.  It is a big chunk of our housing budget.  Yes, it is.

Chairman Hoekstra.  I also appreciate the comments on bilingual.  It appears that a number of 
different places where we go we just don't have enough people that are learning multiple languages, 
as we become a more diverse society.  

Ms. Fernandez.  If I could add, it is not just having English speakers learning Spanish.  It is really 
trying to recruit from Spanish communities to become lawyers, social workers, teachers; and I don't 
think that we do a good enough job of providing incentives for people in Spanish-speaking 
communities to become professionals that will then come back into the community and help.

Chairman Hoekstra.  I appreciate the input.  We will take both of those and any other 
recommendations that you have into account as we go through and work on this legislation.

Mr. Allen, you talked about working together to take a look at the front end.  Can you 
explain that a little bit more to me?  What should we do to make that happen?

Mr. Allen.  Well, one of the things I think we suggest is that there really be a concerted effort to 
deliver consistent messages, to train law enforcement crime prevention officers, to train school 
administrators.

	One of the things that we did with this committee four years ago is create guidelines and 
disseminate them to 28,000 elementary school principals through the National Association of 
Elementary School Principals and the school counselors.  The problem is, in schools across 
America; overwhelmingly what kids are getting is 30 minutes a year in health class is of stranger 
danger.  Don't talk to strangers.  It is good information, but it is grossly incomplete.

	The reality is that, in the vast majority of these cases, the perpetrators are not strangers in 
the eye and the mind of the child.  And our view is that prevention works.  I think we need 
something like a DARE type initiative, just using that as a model, addressing this issue and basic 
education, personal safety education to empower kids, to teach kids that they have the right to say 
no, to deal with the kinds of challenges that they are going to face.

	In our judgment, these kinds of messages work whether we are talking about prevention of 
abduction or a range of other things, from peer pressure over drugs, to bullies, to gangs.  It is 
essentially about empowering kids and building self-esteem and self-confidence and making sure 
that the kinds of messages that ought to be out there are being delivered and they are being 
delivered in a consistent, systematic way.

Chairman Hoekstra.  Mr. Hinojosa.

Mr. Hinojosa.  Thank you, Mr. Chairman.

Mr. Allen, you are right.  I served on the McAllen Boys and Girls Club for 10 years, from 
1984 to 1994, and saw the growth of the Boys and Girls Club go from about 1,000 children to 
nearly 5,000 during that 10-year period.  So I was very pleased that you continue to work with our 
Boys and Girls Club there.

	The first question to you, Mr. Allen.  First, I notice in your testimony that you make 
recommendation for a national training initiative using a standardized training curriculum.  Could 
you discuss what the key features of such a curriculum would be and how it would address the 
needs of the limited-English-proficient children and their families?

Mr. Allen.  All this education needs to be bilingual.  We have disseminated 28 million free 
publications both to professionals, law enforcement and social services professionals as well as to 
families and kids.  All of those publications are available in English and Spanish.  So the messages 
clearly have to be culturally sensitive and in the languages that people are using.

	When we worked with this committee before on developing the guidelines, we went to the 
research.  There is not a lot of research in the area of prevention and, frankly, a little controversy 
about whether prevention actually works.  But what we learned from that research is that if 
prevention is going to be effective, it needs to be grade and age appropriate.  You can't teach the 
same messages to kindergartners that you do to high school kids.  It needs not to be scary.  You 
can't frighten kids into doing safe things and changing behavior patterns.  It needs to be positive, 
and it needs to be based around that concept of self-confidence and self-esteem.

	We think there are models out there.  There are some great programs that are being 
delivered.  Our view from the beginning has been that we should not promote a single program but 
what we should promote are basic concepts so that whether a school district or a Boys and Girls 
Club or a mom and dad at home decide they want to buy a commercial product or they want to 
produce their own or they just want to have standard materials that we at the National Center and 
our partners at the Office of Juvenile Justice can provide that have that consistent information so 
that we are sure we have done everything we possibly can so when a child encounters the kind of 
challenges they are going to they have the information and knowledge to stay safe.

Mr. Hinojosa.  Children that are bilingual love to watch programs in English and Spanish.  Would 
you elaborate how would you work with Univision, the Spanish language network, as well as any 
other network that broadcasts to the non-English-speaking community?

Mr. Allen.  Yes.  Well, Mr. Hinojosa, we are already.  Univision and Telemundo have been great 
partners of ours.  And primarily, after the fact, we do profiles, for example, a child in Houston last 
year was abducted, 13-year-old named Laura Ayala, got very little national media attention during 
all the frenzy about the other cases.  Univision was our partner in helping to create visibility around 
that case.

	So the Spanish language networks have been great friends and partners in helping us get 
information out, targeted to Spanish-speaking communities about missing child cases and have 
done occasional features on basic information and education to stay safe.  Media is our primary 
vehicle.  We would like to do a lot more of it.  We have established relationships with them.  I 
think they would be great partners in trying to do the kind of effort I am suggesting.

Mr. Hinojosa.  Absolutely.  They are great at getting coverage out to the Latino community.

Ms. Fernandez, I couldn't help but listen carefully to your ending comments about the 
importance of recruiting Hispanic professionals that are bilingual and trained professionals.  Tell us 
what your recommendations are to increase those numbers that have access to higher education.  
What are the recommendations and how can we increase the access to postgraduate studies?

Ms. Fernandez.  I think it is through scholarship, if you tie it to some community service at the 
back end.  If you get the money from Congress or from the United States, then you need to put in 
two years worth of service back into the community, three years of service back into the 
community.  Then you have a constant stream of highly qualified bilingual professionals.

	Because it is difficult recruiting.  In order to get bilingual social workers, [many] will tell 
you it is difficult.  Once we find one, we try to hold on to them as best we can.  But when there are 
other competitive salaries out there, for example our social workers get stolen by Fairfax County all 
the time because they are able to pay a little bit more.  So it is a constant battle.

Mr. Hinojosa.  My time has run out.  Mr. Chairman, maybe in the next round I can have the 
privilege of visiting a little bit with Michael Hughes.  But I will yield at this time.

Chairman Hoekstra.  All right.  Thank you.

Mr. Gingrey.

Mr. Gingrey.  Thank you, Mr. Chairman.

	Any one of the panelists could respond to this, maybe each and every one of you.  In regard 
to, I guess, the Basic Center program where you have youngsters who have run away from bad 
situations in their home environment and you work with them and these programs and maybe even 
through the Transitional Living Program, when you do get them back to their families, what is the 
percentage and do you keep statistics on that to find out how successful you are?  Of course, 
obviously, you are not treating that family from whence they came, or maybe you are.  Maybe you 
could describe that to us a little bit.

Ms. Fernandez.  We are in a lucky situation.  We have a whole division that works with families, 
and that funding isn't tied to the Basic Center grants.  So in a situation that we have a young woman 
and a baby who get kicked out of their house for one reason or another, we work with them and 
stabilize them; and, at the same time, we will work with the mom, the dad, anybody else in the 
family, a grandmother, in order to figure out what the tensions were that caused the young girl to be 
thrown out of the family.

	But I think that we are in an extraordinary situation in that we have multiple programs from 
different funding sources that all work together to ensure that both youth and family get the 
services that they need.  But I think that we are unique that that way.

	To answer your question about how many of those reunited stay united, I can't give you 
specific details.  I do know that when we have the opportunity to work with the family, chances are 
that we can get a reunification.

Mr. Hughes.  With Covenant House, I know that when you come into Covenant House you are 
assigned to a specific person, your service manager.  They are more than just service managers.  It 
is more like they give you more one-on-one type of contact.

	I know in my situation, for instance, Covenant House provided me with a service manager, 
but not only a Service Manager.  They have professional counseling, you know, so they don't really 
go to the people, the homeless youth homes, but what they can do is talk to the youth and find out 
exactly what the problem was.  Like my problem, they helped me out to suppress some of the anger 
that I was feeling at the time and get the youth prepared to go to their homes them selves and be 
more emotionally stable to go to their homes.

	So I think in reunification of the families they will start with the person that ran away and 
make sure they are stable enough to go home and help the situation if possible.

Mr. Gingrey.  Of course, that is what I was trying to get at like the situation, Mr. Hughes, that you 
described to us.  Of course, now you are five months into the Transitional Living Program; and, as 
the chairman was saying, when you finish your time there, the 18 months, and you have to move 
out, you are, of course, still in college and you are wanting to get that degree, but you have to 
somehow come up with the rent and food money.  You are almost kind of forced into seeking full-
time employment when really you know and we all know that it would be better if you were able to 
stay in school and get that better-paying job a couple of years later if there was some way that you 
could do that.  I would encourage you to work with the school in regard to Pell Grants and things 
like that.

	But, again, I keep thinking about these homes from which people like yourself leave, 
probably for very good reason and maybe in some instances your own safety.  But I would hope 
that the programs that we are sponsoring would work with the facts and other social service 
organizations and to try and transition you and others that have been faced with this situation back 
into, hopefully, a safe home environment where you would have that kind of financial support and 
a place to lay your head at night and to be clothed and fed by your family situation.

Chairman Hoekstra.  Mr. Ryan.

Mr. Ryan.  Thank you, Mr. Chairman.  I appreciate the testimony.  I have a couple questions here 
and maybe a comment.

	First, Mr. Allen, I am glad I was listening to your testimony and thinking about how you 
would try to educate these young kids on the fact that it is not a stranger, that it is actually someone 
close, and how do you that and what a skill it must be to be able to do that in a way that these kids 
don't go home and are afraid of their own parents.  So I am glad you commented on that.

	But the question I have relates to when you discussed having different organizations 
represented within your organization with the customs, and can you talk a little bit about how you 
coordinate and how these different organizations coordinate?  Because it sounds to me that it may 
be a good model for us as we get into our Homeland Security Department and how we try to 
integrate many of these different departments to work together.  Yours may be a model.  So if 
could you walk us through how these different representatives work together.

Mr. Allen.  Mr. Ryan, we think it is exciting; and we think in many ways it is unusual.  And it has 
sort of evolved.  Much of it has happened because of the fact that there is a division of 
jurisdictional responsibility.

	But, for example, in the late 1990s the FBI director decided that it was important, based on 
the fact that the center was now taking leads regarding serious federal crimes, particularly related to 
the Internet, so the FBI has assigned an agent and three analysts who work out of our center.

	The Customs Service, which has primarily responsibility in the area of child pornography, 
has assigned an agent and an analyst.

	The United States Secret Service, because it has an array of resources and people out there 
in the field that can help, as well as forensics has assigned an agent and three analysts.

	The Postal Inspection Service, because of their role in child pornography, has assigned a 
postal inspector.

	We even have an ATM agent.  Each of them works for their agencies.  They don't report to 
us.  But we put them together.

	For example, when the CyberTipline needs come in regarding child pornography or on-line 
enticement of a child, our analysts access the content, triage the content, and those agencies are all 
linked with us via server.  There is a grid, a matrix, on the reporting form; so the FBI will say, yes, 
we think this is a serious matter that is appropriate for our agents to follow.  They check the box on 
the form, which then says to the other agencies they can focus on other cases and vice versa.

	So it is informal.  It is information sharing by putting everybody in the same facility.  
Nobody leaves his or her ultimate jurisdiction or responsibility at the door, but it is a way that I 
think has effective life force.  It has introduced communication and information sharing and a real 
collaborative approach.  We think it is working, and we think it is a great model to use in 
addressing other kinds of problems.

Mr. Ryan.  Is it as informal as, hey, keep a look out for X, Y or Z between the agents?

Mr. Allen.  Absolutely.  The ongoing communication between the agents and they are there in the 
same building at the same time and talk to each other personally, and in addition there is a 
reporting process.  So the FBI and all of these leads that they get through the CyberTipline 
basically will report, we are referring these to the field, we are referring these to our innocent 
images division that specifically follows up on this, these we are not going to take action on.  
Therefore, there is a record between those agencies in terms of who is doing what.

	I think it has done two things.  I think it has minimized duplication; and, secondly, I think it 
has maximized the likelihood that there is going to be serious follow-up on all of these cases 
because somebody is owning them, somebody is accepting responsibility for them.  Our role in all 
of this is a sort of broker/facilitator, analyst.  We are trying to build cases for them.

Mr. Ryan.  Thank you very much for your explanation and really for your leadership in that.  
Because that sounds like a real model can be used.

One comment, Mr. Chairman, regarding Michael Hughes' story, I think not only is an 
example of the courage that I think it takes for a young man to be able to lift himself up out of this 
situation that he was in, but I think as we start discussing over the next few months about where our 
budget priorities are going to be, we are talking about student aid and child nutrition and all of the 
priorities that will be debated over the next few months.  It is so important for us to realize that here 
is a young guy who was homeless and now is going to college.  I don't know why you are majoring 
in biology, but that is a whole other story.

	But our obligation here is to make sure that young men like Michael Hughes have access to 
student loans and that when he gets out of school and has access to help himself, lift himself up and 
continue to do that.  I believe it is our obligation to do as much as we can to help him to make sure 
that the programs that he is going to access and a lot of young men and women around the country 
like him are going to need access.  I am worried that some of those programs are going to be up on 
the chopping block.

	I think it is a responsibility of us here to make sure that you do have access to that.  So 
thank you for your story.  I hope that we all remember you when we are debating the budget.

	Thank you.

Chairman Hoekstra.  Thanks.  Just to follow up on Mr. Ryan's comments, Michael, how many of 
your friends are out on the street still?

Mr. Hughes.  Can you repeat the question?

Chairman Hoekstra.  How many young men that you met while you were homeless are still 
homeless out on the street?

Mr. Hughes.  There are quite a few of them.  A lot of my friends that are out on the street really 
don't want to come to Covenant House because they are more caught up in the street life and they 
are enjoying it.  And though I was there for a brief moment, I didn't like what I was seeing.  So I 
made sure that I pulled myself away from it as far as possible.

	I mean, I am still in the inner city, but when you come into the community service center it 
is a whole another world.  You have a sense of security when you leave and go out on the street 
view to prepare yourself.  But when you come in, you feel better.

	Most of my friends are still out on the street doing negative things.  I see them quite often, 
but I try to stay away from it because if I get too close to it I might be tempted to go back.

Chairman Hoekstra.  So there is something that holds them out there.

Mr. Hughes.  Yes, there is.

Chairman Hoekstra.  How many of them would like the opportunity that you have had, that there 
is not room?

Mr. Hughes.  I talked to a gentleman about two days ago who was interested in coming into the 
TLP, and I gave him a card from Covenant House.  He is actually today; he is supposed to be 
coming in and taken into Covenant House.

	There are many youth out there that want to come into Covenant House and there is a 
limited amount of space.  I know with the Transitional Living Program it is several steps that you 
have to take in order to be accepted into the program, and it is a competition to get into the 
program.  Several programs that we as youth know about in D.C. about three organizations that we 
know and we try to apply to all of them and hope that we get in one, but the space is very limited.  I 
mean, I don't know exactly offhand, but I can think about maybe 20 or 30 slots they might have for 
TLP, and that is in a city of millions of people.  It is tough, and I think they need to have more 
openings and more spaces for youth that want to come into TLP and hopefully they can be 
accepted into TLP.

Chairman Hoekstra.  Ms. Fernandez, do you turn folks away?

Ms. Fernandez.  Yes.

Chairman Hoekstra.  Where do you send them?

Ms. Fernandez.  Sometimes we call Covenant House.  Sasha Bruce is one of our other partners.  
We try to, as much as possible, either try to get into the foster care system or one of our programs.

	But there are times when we have had requests.  We have a young man who is 16 years old, 
and there is just no bed to be found.  So we just either have to wait or we try to do something with 
the youth.  We try to not leave them on the street if they want a space.  But we can't offer every 
youth that wants to come into the 18-month program a slot.  We always have a waiting list.

Chairman Hoekstra.  Okay.  Mr. Allen, you must have some kind of profile saying if a runaway 
or missing youth fits a certain kind of profile, we want local and State organizations to notify us 
and get that into the National Data Bank.  Do you have any kind of statistics as to how many of 
those people that figure profile actually end in your database?

Mr. Allen.  Really, no.  There are some new data from the Justice Department that estimated 
roughly 1.7 million runaway and homeless youth every year based on national survey research, of 
which roughly only about 20 percent, as I recall, I think about 340, 000 to 350,000 are actually 
reported as missing.

	Obviously, one of the great challenges with this problem is that we have used the data for 
years.  They are probably pretty old.  However, kids who do spend substantial amounts of time on 
the street, clearly there is a very high likelihood that those kids are going to become involved in 
drugs or prostitution or theft or become victims in some way.  Just as Mike told you, if you are on 
the street long enough, it is a pretty threatening place.  So this is a huge problem.

	And the challenge that we see, because we only see a small piece of the runaway problem, 
we are basically searching for those runaways who are reported missing by their parents, and then 
the Justice Department sets specific criteria for our involvement regarding endangerment.  So if a 
child, for example, or if a kid has some medical dependency or life-threatening medical situation or 
is in the company of someone considered to be a threat or is very young, we would get involved 
and search for that runaway as we would for any other missing child.

	In the vast majority of cases, we get many calls from our hotline from runaways themselves 
who want to come off the streets.  What we do is have a direct connect with the National Runaway 
Switchboard in Chicago.  Our hotline is primarily established to take leads regarding missing, most 
of the calls coming from parents or average citizens.  The National Runaway Switchboard is 
handling calls from runaways themselves who are looking for help.  So we try to make sure that we 
get those referrals to the appropriate place.

	But I think the real soft data is on how many of those kids then go on to other problems.

Chairman Hoekstra.  Mr. Hinojosa.

Mr. Hinojosa.  I wish to exercise personal privilege and acknowledge the presence of Harry 
Wilson, the Commissioner of the Family Youth Services Bureau, on behalf of our committee and 
staff.  We want to say thank you for sharing up-to-date information through your bureau on the 
work that we are doing on this issue.  Thank you for being here.

	My questions, maybe a statement and question to Michael Hughes, is that, having heard 
your personal experience, I admire your resilience.  I am sure that you serve, as a source of 
inspiration to other young men and women, and it seems to me that for many homeless youth the 
first step to accepting help from an organization is establishing trust.  How did the Covenant House 
earn your trust?

Mr. Hughes.  Quite simply, in my case, Covenant House established trust with me on the first day 
that I contacted Covenant House.  It was a Saturday, and I talked to a gentleman on the phone who 
asked me if I had a place to stay.  I didn't have a place to stay, but I told him on the telephone that I 
had a place to stay.  I guess out of pride I told him that I had a place to stay.

	I made an appointment to come up to Covenant House's service center that following 
Monday.  The Monday that I came to Covenant House to tell them about the circumstances that I 
was in, and basic intake, intake into the program, which is the application process to make sure that 
you have no warrants out for your arrest, you have to get a police clearance in the District of 
Columbia; I think the most impressive thing to me and the thing that made me trust Covenant 
House was I was immediately placed into the shelter.

	Most places that I called turned me away or said we don't serve anyone that is older than 18.  
So I was left with basically nowhere to go.  And Covenant House immediately put me into shelter 
immediately helped me start establishing myself.  And everything that I stand for they helped me.

Mr. Hinojosa.  I understand.  It is clear to me that you have come a long way.  Could you tell us a 
little bit more about how the Covenant House helped you get ready for college?

Mr. Hughes.  I had graduated from high school and was going into the military, and I changed my 
mind for reasons of my own.  But Covenant House got me ready.  I wasn't going to college.  I never 
thought of college anytime, and they helped me think more of the education part because it is hard 
to get a good job out here. 

Mr. Hughes.  When you are placed out on the streets and you know you have to work this 
minimum wage job, which is very hard, they make you think.  Would you want to do this for the 
rest of your life?  Would you want to work at McDonalds, excuse me for naming places, but would 
you want to work for McDonalds for the rest of your life?

	I told myself, no, I would not want to work at McDonalds for the rest of my life.  So they 
said the first step in getting a great job is education, and I thought about it, and I realized what they 
were saying is the truth.  Education is the number one key.  That alone made me change my whole 
mindset and want to go to college.

	They helped me with the whole application process.  The application fee was waived in my 
case.  The Covenant House had education specialists.  They go to universities and get the 
application fees waived and other fees waived.  So I had my application put in, the fee was waived, 
and I was accepted.

Mr. Hinojosa.  So when you say they waived the fee, is it a scholarship where you don't have to 
pay any kind of monetary fees to attend college?

Mr. Hughes.  No, sir.  It was just the application fee.  I received financial aid through the 
government to pay for all of my college for the year.

Mr. Hinojosa.  I see.  Well, thank you.  It has been a pleasure listening to you, and we certainly 
hope that you will be able to continue on this good path that you are on.

Mr. Hughes.  Thank you.

Mr. Hinojosa.  Mr. Allen, in your testimony you said that you were not requesting additional 
funding at this time, but you said that more funding may be necessary as you begin implementing 
new requirements.  Have you done some analysis on the additional workload and what the potential 
costs would be?

Mr. Allen.  No.  Mr. Hinojosa, this is a brand new situation.

	The point I was trying to make is, over the past several years the Congress has asked us to 
undertake a number of new functions and activities beyond the original mandate in the Missing 
Children's Assistance Act.  The most recent was during the conference committee on the Protect 
Act conferees created a compromised version of a national background screening effort for youth 
serving organizations.  So built into the Protect Act is a pilot, a test, for three national 
organizations: the Boys and Girls Clubs of America, the National Mentoring Partnership and the 
National Youth Council; and in that legislation Congress asked if the National Center would, in 
effect, be the hub of that effort and if we would make the decision for those organizations, sort of a 
fitness decision.  After the FBI does the fingerprint screens, if we would make the determination of 
whether the person is qualified or not qualified.

	Again, the conferees from the conference meeting, staff of one of the conferees, called and 
said, will the center do that?  I said, yes, we would be glad to do that, but clearly there are a lot of 
details that have to be determined.  There are issues like what are the standards for fitness and how 
many people will it take for us to do that and, frankly, issues like liability.  You know, if we are 
going to undertake that kind of function, I wanted to make sure that there is some sort of hold 
harmless or immunity.  If we make a decision based on a certain range of criminal history and it 
turns out to be wrong, in many ways acting as a kind of de facto public agency, it creates some 
vulnerability.

	So that is my point.  The current organization, we are very happy with.  We are doing the 
things that Congress has asked us to do.  We are not asking for another nickel, but if the 
background screening activity ends up costing more, I don't want to divert resources from our core 
mission and our core mandate from you to have to spend a huge amount of money doing that.

	Secondly, there could be other things in the future, which Congress says we would like for 
you to do this or the other.  So my suggestion was that in the out-years beyond the current 
authorization year of 2005 the committee consider a higher appropriations ceiling to give us some 
flexibility in going to the appropriations committee on that.  But we are not asking for additional 
funds.

Mr. Hinojosa.  Finally, Ms. Fernandez, I listened attentively to your recommendation that possibly 
access to Pell Grants and student loans be made available to students to be able to access higher 
education and postgraduate studies and not having to pay till after they finish school and hopefully 
put in three years of service to forgive all or part of those loans after putting in three years in this 
service.  What would be the incentive for someone to go work for your organization when, if you 
get a college degree, you would probably make more money working for possibly public and 
private entities that pay much more than you can?

Ms. Fernandez.  Well, first of all, if you were willing to forgive a loan, that is a huge incentive.

	When I graduated from law school, I came out with a hundred thousand dollars worth in 
loans.  I am still looking for someone to forgive those.  So I think that loan forgiveness is a huge 
incentive to go work in the community.

	Second of all, many times people talk about trying to help social justice or to help move 
forward an issue in society.  I think when you sit down and you work with the homeless youth and 
you really can see the difference that your job makes and that somebody is going to go to college 
and somebody is safe and somebody is off of drugs, that is a huge reason to go and work in a front-
line organization.

	And, lastly, we are a ton of fun.  If you come visit us, it is a really warm, nice place to be.  
We have made a huge effort not just to have our kids want to be there but for our staff to want to be 
there.  That is part of our mission, is to create environments where people want to come, and they 
want to work, and it doesn't feel really like a sacrifice, but it feels like a joy.

Mr. Hinojosa.  Thank you.

	I yield back, Mr. Chairman.

Chairman Hoekstra.  I think that is what they say about Congress every once in a while, don't 
they, that we are a ton of fun as well.

Mr. Gingrey.

Mr. Gingrey.  Thank you, Mr. Chairman.

	I want to make sure that I am connecting all the dots here, and Mr. Allen, regarding what 
your mission is and what you do with the National Center for Missing and Exploited Children and 
what Ms. Fernandez does with the Latin American Youth Center and other similar organizations, 
tell us how you coordinate your activities.

	As an example, Ms. Fernandez, someone comes to the Latin American Youth Center, do 
you then check with Mr. Allen, with the National Center for Missing Children to find out that, you 
know, a parent could say, well, thank God, I will be on the next plane.  We have been praying, and 
our prayers are answered.  Our child is found.  Or some other parent says, well, that juvenile 
delinquent has run away from home five times, and we are throwing in the towel and giving up, so 
do with him or her what you can.

	How are you coordinating to make sure that you are getting the ones back that really need 
to go back and then working intensely with those who really do not have an opportunity to go back 
to their family situation?

Mr. Allen.  If I can go first, historically, I think, in all candor, there has been a little bit of tension 
between what the center has done and sort of the runaway and homeless youth community, 
constructive tension.  But over the issue there has always been concern about bringing law 
enforcement into too many of these runaway-type cases.  Our primary constituency is law 
enforcement and its parents.  Our primary mandate from the center is to find missing kids, to work 
with law enforcement, to bring them back to their families.

	Now, the vast majority of the 1.6 million or whatever number you use of runaway and 
homeless youth involve kids who have not been reported missing and, frankly, nobody is looking 
for.  So that is an issue.  That is one of the reasons why our mandate from Congress and our current 
criteria from the Justice Department is to focus on mobilizing law enforcement to locate and return 
only those runaways who can be classified as endangered based on one of the series of criteria.

	Now, we have worked very, very closely with the runaway community, as I mentioned 
earlier.  We link with the National Runaway Switchboard.  In cases in which there is some question 
about the vulnerability of a runaway and where there is law enforcement involvement, we will 
certainly and do routinely refer cases to the runaway shelter community and to agencies like Ms. 
Fernandez, but I would say by and large we do get referrals in the other direction.  We do get 
agencies that call us to say, is there a report on this runaway, is anybody looking?  But in the vast 
majority of cases I think the overwhelming problem that the runaway and homeless youth 
community is trying to address, frankly, are kids that nobody is looking for.

Mr. Gingrey.  Thank you.  I would think it would almost be routine for centers like Ms. 
Fernandez's Center that they would just almost routinely check with the National Center for 
Missing Children to see if someone was looking for them.

Mr. Allen.  We would welcome it.

Ms. Fernandez.  My background is a little different than a lot of people who have run social 
service organizations.  I was a former prosecutor in Manhattan.  There my background was law 
enforcement.  When I came to the center, one of the first things I tried to do was sort of bridge the 
problems between social service organizations and law enforcement.  To be quite frank, the police 
thought that we were harboring fugitives.  Not the truth.  And our social workers thought that the 
devil incarnate was a police officer.  So it took quite a bit of coming together for both the people on 
the social service end and the police office to sort of understand what each one does.  We currently 
have a really good relationship with the Metropolitan Police Department.  They understand that we 
are there to help, and my staff regularly says, where are the police?  So that has been progress.

	I don't think that I would turn to Mr. Allen's organization intuitively as the first step I would 
take.  I would call 911.  That is what you do when you are in a panic.  We have had situations 
where kids have been missing and the police have come to us with pictures saying, have you seen 
them?  Or if a parent tells us, they can't find their kid, we call 911.  They are the first respondent; a 
police officer is just the first person that you are going to call.

Chairman Hoekstra.  I don't think there are any more questions.  I appreciate the panel being here 
today.  It was very informative, very helpful.  We really appreciate it.

	There is no further business.  The subcommittee stands adjourned.

	[Whereupon, at 3:30 p.m., the subcommittee was adjourned.]





















APPENDIX A -- WRITTEN OPENING STATEMENT OF CHAIRMAN PETE 
HOEKSTRA, SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC  




















APPENDIX B -- WRITTEN STATEMENT OF ERNIE ALLEN, PRESIDENT, 
NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN, 
ALEXANDRIA, VIRGINIA  


















APPENDIX C -- WRITTEN STATEMENT OF MAI FERNANDEZ, 
MANAGING DIRECTOR, LATIN AMERICAN YOUTH CENTER, 
WASHINGTON, DC 



























APPENDIX D -- WRITTEN STATEMENT OF MICHAEL HUGHES, 
COVENANT HOUSE YOUTH, COVENANT HOUSE WASHINGTON, 
WASHINGTON, DC 

























APPENDIX E--SURVEY OF HOMELESS YOUTH IN MINNESOTA 
CONDUCTED BY THE WILDER RESEARCH CENTER, SUBMITTED FOR 
THE RECORD BY REPRESENTATIVE BETTY MCCOLLUM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, WASHINGTON, DC




















APPENDIX F- SUBMITTED FOR THE RECORD, WRITTEN STATEMENT 
OF JOAN E. OHL, COMMISSIONER, ADMINISTRATION ON CHILDREN, 
YOUTH AND FAMILIES, ADMINISTRATION FOR CHILDREN AND 
FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
WASHINGTON, DC



















APPENDIX G-SUBMITTED FOR THE RECORD, WRITTEN STATEMENT 
OF THE CHILD WELFARE LEAGUE OF AMERICA, NATIONAL 
ALLIANCE TO END HOMELESSNESS AND VOLUNTEERS OF AMERICA, 
WASHINGTON, DC



145


Table of Indexes



Chairman Hoekstra, 1, 4, 5, 6, 8, 11, 13, 14, 15, 17, 18, 20, 21, 22, 25, 26
Mr. Allen, 5, 6, 14, 15, 16, 18, 19, 21, 23, 25, 26
Mr. Gingrey, 4, 17, 18, 25, 26
Mr. Hinojosa, 3, 4, 7, 15, 16, 17, 22, 23, 24
Mr. Hughes, 11, 13, 17, 20, 22, 23
Mr. Ryan, 5, 18, 19
Ms. Fernandez, 8, 13, 14, 16, 17, 21, 24, 26




cxxxviii

ii


</pre></body></html>
